MANDELBAUM, FITZSIMMONS, HEWITT & CAIN, P.A.
ATTORNEYS AT LAW

JOHN N. CAIN, Jr.

_______

KEVIN J. FITZSIMMONS *
SCOTT K. HEWITT

2111 SWANN AVENUE ■ SUITE 200
TAMPA, FLORIDA

BENJAMIN S. STRANZL
SAMUEL R. MANDELBAUM, LL.M.**

_______

STEPHEN A. SPAID
NICOLAS E. FERREIRO
JOHN ARNETT

P.O. BOX 3373
TAMPA, FLORIDA 33601-3373

CHARLENE RAMUS-JAFFE

______

Fax (813) 221-8558
Orlando Office Address –
2499 OLD LAKE MARY RD. #142
SANFORD, FL 32771

MAILING ADDRESS –

MICHAEL R. RAINEY

*

Telephone (813) 221-0200

Website -

www.ManFitzLaw.com

FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LITIGATOR

** ADMITTED FL & NY BARS;
FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LAWYER
FLORIDA BAR BOARD CERTIFIED INTERNATIONAL LAWYER

January 27, 2021

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543

RE:

Huong L. Tran v. City of Holmes Beach et al;
Supreme Court Case no. SC # 20-881
Eleventh Circuit Appeal no. 19-13470
U.S. District Court no. 8:19-cv-534 (M.D.Fla.)

Dear Mr. Harris:
Please note the undersigned counsel would note their appearances in the above case as attorneys
for Respondents Florida Department of Environmental Protection and the Department Officials.
Pursuant to this Court’s Rule 30.4, Respondents Florida Department of Environmental Protection
and its Department Officials, by and through undersigned counsel, would hereby respectfully
request a 30-day extension of time, up to and including March 5, 2021, to file their brief in
opposition to the Petition for Writ of Certiorari (“Petition”) as docketed in this Court on January
4, 2021. As grounds for extension, Respondents would state:
1. The Respondents in this case, Florida Department of Environmental Protection and its
Department Officials, are a government agency of the State of Florida and the agency’s officials
2. In this case Petitioner challenges the decision of the U.S. Court of Appeal for the Eleventh
Circuit rendered on September 24, 2020, affirming the U.S. District Court’s final order dismissing
the Petitioner’s Third Amended Complaint with Prejudice.
3. Presently the Respondents’ brief in opposition is due for filing in this Court per this Court’s
Rule 15.3 on February 3, 2021.
4. However, Respondent’s undersigned counsel also has a brief in opposition due around the
same time period in another case before this Court: Shane Davis v. Mike Carroll et al, Supreme
Court Case no. 20-872. In addition, undersigned counsel is currently handling several appeals this

Scott S. Harris, Clerk
January 27, 2021

- Page 2 -

month in the state appellate courts of Florida, and complicated dispositive motions in the U.S.
District Court for the Middle District of Florida.
5. A proper brief in opposition to Petitioner’s detailed Petition will take considerable time and
effort. In light of the other briefs and complicated motions due within the same time period the
brief in opposition is due, good cause exists for a 30-day extension of time.
6. Undersigned counsel has communicated with the pro se Petitioner, Huong L. Tran, who has
no opposition to this 30-day extension requested by the Florida Department of Environmental
Protection and its Department Officials.
7. However, the pro se Petitioner requested that the undersigned notes in this motion that she
would oppose any request for extension that may be made by the co-Respondent City of Holmes
Beach (the Florida Department of Environmental Protection and City of Holmes Beach are
separate parties with separate counsel).
For the reasons stated herein, Respondents respectfully request that the time to file their Response
to the Petition in this case be extended by 30 days up to and including March 5, 2021.
Respectfully Submitted,
_/s/ Samuel R. Mandelbaum, Esq._
Samuel Robert Mandelbaum, Esq.,
Member of this Court’s Bar
Florida Bar Number 270806
srm@manfitzlaw.com
Post Office Box 3373
Tampa, Florida 33601
Telephone: (813) 221-0200 ext. 105
Facsimile:
(813) 221-8558
Counsel for Respondents

cc:

Huong L. Tran
103 29th Street
Holmes Beach, FL 34217

